IN THE SUPREME COURT OF THE UNITED STATES
COMMONWEALTH OF PENNSYLVANIA,
Petitioner
v.
MICHAEL J. HICKS,
Respondent

:
:
:
:
:
:

ON PETITION FOR
WRIT OF CERTIORARI

Docket No. 19-426

CERTIFICATE OF SERVICE
I, John T. Adams, Past President of the Pennsylvania District Attorney’s Association, hereby
certify pursuant to Supreme Court Rule 29.3 that I have served a copy of the Amicus Curiae Brief of
the Pennsylvania District Attorneys Association in Support of Petition for Writ of Certiorari upon the
following by electronic mail (e-mail):
James B. Martin, District Attorney
Lehigh County District Attorney’s Office
455 W. Hamilton Street
Allentown, PA 18101-1614
JamesMartin@lehighcounty.org
Kathryn R. Smith, Assistant Public Defender
Lehigh County Public Defender’s Office
455 W. Hamilton Street
Allentown, PA 18101-1602
KathrynSmith@lehighcounty.org
Respectfully submitted,

John T. Adams
October 31, 2019

By: John T. Adams
Past President
PENNSYLVANIA DISTRICT ATTORNEY’S
ASSOCIATION
2929 North Front Street
Harrisburg, PA 17110
jadams@countyofberks.com
(717) 238-5416

